TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Enforcement Actions Were Not Always
                  Timely Initiated When Taxpayers Did Not
                  Respond to Contact Attempts or Missed
                                  Deadlines



                                       June 10, 2009

                           Reference Number: 2009-30-081




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review
 process and information determined to be restricted from public release has been redacted from
                                          this document.

 Redaction Legend:
 1 = Tax Return/Return Information



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                    DEPARTMENT OF THE TREASURY
                                                           WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                     June 10, 2009


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                          Michael R. Phillips
                                Deputy Inspector General for Audit

 SUBJECT:                       Final Audit Report – Enforcement Actions Were Not Always Timely
                                Initiated When Taxpayers Did Not Respond to Contact Attempts or
                                Missed Deadlines (Audit # 200830006)

 This report presents the results of our review to determine whether revenue officers 1 are adhering
 to case resolution guidelines by taking appropriate enforcement actions (liens, 2 levies, or
 seizures 3 ) when warranted to resolve balance due accounts. This audit was included as part of
 our Fiscal Year 2008 Annual Audit Plan under the major management challenge of Tax
 Compliance Initiatives.

 Impact on the Taxpayer
 The Internal Revenue Service (IRS) has the authority to file liens to protect the Federal
 Government’s interest when taxpayers have unpaid tax liabilities and to levy or seize taxpayers’
 income or assets in an effort to collect unpaid tax liabilities. These collection tools were not
 always used or used timely in balance due cases. Not using collection tools to secure the Federal
 Government’s interest or collect balance due amounts could result in inequitable treatment of
 taxpayers and loss of revenue to the Federal Government.


 1
   Field collection employees who attempt to contact taxpayers in person to resolve tax delinquencies that were not
 resolved through letters or telephone calls to the taxpayer.
 2
   A Notice of Federal Tax Lien, referred to as a lien throughout this report, is filed with officials such as a Secretary
 of State or County Clerk to notify creditors that the Government has a claim against the taxpayer’s property.
 3
   Levies are legal seizures of tax debtors’ assets to satisfy tax delinquencies. These can include assets held by third
 parties such as bank accounts and wages. The IRS can also seize and sell taxpayer possessions such as business
 assets, vehicles, and real estate.
                           Enforcement Actions Were Not Always Timely Initiated
                           When Taxpayers Did Not Respond to Contact Attempts
                                           or Missed Deadlines




SynDpsis
The mission of the Collection function is to collect delinquent taxes and secure delinquent tax
returns through the fair and equitable application ofthe tax laws, including the use of collection
enforcement tools when appropriate; provide education to customers to enable future
compliance; and, thereby, protect and promote public confidence in the American tax system.
The Internal Revenue Code authorizes the IRS to use enforcement tools, such as liens, levies,
and seizures, for the collection of taxes owed.
The use ofenforcement tools has been emphasized by management and the use of liens and
levies has increased in recent years. IRS management has developed various means of
evaluating the use of these tools, including a quality review system and management oversight
within Area Offices. 4 National and local management use results from these reviews and
oversight observations to take action to emphasize proper and timely use of the enforcement
tools available to revenue officers.
Despite management's attention and efforts, Collection function enforcement tools were not used
or were not used soon enough in 15 (21 percent) of the 70 cases (taxpayers) we reviewed. 5
These actions should have been pursued when taxpayers missed specific deadlines or did not
respond to letters or messages for the taxpayers to contact the revenue officers. Specifically,

    •

    •    Levies should have been issued earlier in nine of the cases we reviewed.




    •    Seizure consideration would have been appropriate in five of the cases we reviewed. In
         these cases, the process to determine if a seizure was appropriate should have been
         initiated earlier.
Based on our results, we estimate that collection enforcement tools were not used or were not
used soon enough in approximately 4,250 taxpayer cases. 6


4 A geographic organizational level used by IRS business units and offices to help their specific types of taxpayers

understand and comply with tax laws and issues.

5 We had exceptions in 15 cases, but 6 cases had exceptions for more than I type of enforcement action.

6 Our projection is based on a statistically valid sample from a universe of 20,270 taxpayers using a 95 percent

confidence level, an error rate of 50 percent, and a precision of ± I0 percent. The actual error rate was 21 percent.

                                                                                                                         2
                     Enforcement Actions Were Not Always Timely Initiated
                     When Taxpayers Did Not Respond to Contact Attempts
                                     or Missed Deadlines


These instances occurred in part because the revenue officers were not always following up in a
timely manner when taxpayers missed deadlines to provide information needed to resolve the
case. In addition, the revenue officers in some cases appeared to be hesitant to take enforcement
actions when deadlines were missed. In some cases, the revenue officers initiated followup
contacts with the taxpayers after the missed deadlines rather than take enforcement actions. In
addition, Fiscal Years 2007 and 2008 operational reviews of Area Offices performed under the
direction of Headquarters staff did not include case reviews.
The IRS is implementing new procedures and processes to allow greater flexibility for dealing
with taxpayers who become delinquent due to current economic conditions, which could have
some impact on the use of enforcement tools. The provisions apply to taxpayers who have
demonstrated good faith efforts in the past to comply with tax laws, but who now face
difficulties such as loss of job, loss of home, or a decrease in home equity. However, these
procedures were not in effect when the cases in our review were being worked and, even if they
had been in effect, we do not believe they would have had a great impact on how the cases
should have been worked. The cases included in our results involved taxpayers who were not
demonstrating good faith efforts to resolve their liabilities and comply with tax laws.

Recommendations
We recommended that the Director, Collection, Small Business/Self-Employed Division,
reemphasize the IRS policy for timely and effective followup contacts to deadlines established
for taxpayers and specifically include an assessment of the adequacy of enforcement actions in
case reviews that have been reintroduced as part of the Fiscal Year 2009 operational reviews of
Area Offices performed under the direction of Headquarters staff.

Response
IRS management agreed with our recommendations and has taken steps that address our
recommendations. Management issued a memorandum emphasizing that 1) revenue officers
should implement case strategies which include simultaneous case actions, and 2) enforcement
action is generally the next appropriate case action when taxpayers miss established deadlines.
The IRS also developed several training courses designed to reinforce the importance of timely
and effective case actions including, when appropriate, enforcement action. In addition, as part
of the Fiscal Year 2009 headquarters operational reviews of Area Offices, the IRS has included
an assessment of the use of appropriate enforcement action in case reviews. Management’s
complete response to the draft report is included as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or


                                                                                                   3
                    Enforcement Actions Were Not Always Timely Initiated
                    When Taxpayers Did Not Respond to Contact Attempts
                                    or Missed Deadlines


Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations), at (202) 622-8510.




                                                                                      4
                             Enforcement Actions Were Not Always Timely Initiated
                             When Taxpayers Did Not Respond to Contact Attempts
                                             or Missed Deadlines




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Proper and Timely Use of Enforcement Tools Was Emphasized
          by Management.............................................................................................Page 3
          Enforcement Tools Were Not Always Timely Initiated When Taxpayers
          Missed Deadlines or Were Not Cooperating to Resolve Their Balance
          Due Accounts................................................................................................Page 4
                    Recommendations 1 and 2: ................................................Page 6


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 7
          Appendix II – Major Contributors to This Report ........................................Page 10
          Appendix III – Report Distribution List .......................................................Page 11
          Appendix IV – Case Example – Untimely Enforcement Actions ...............Page 12
          Appendix V – Management’s Response to the Draft Report .......................Page 13
      Enforcement Actions Were Not Always Timely Initiated
      When Taxpayers Did Not Respond to Contact Attempts
                      or Missed Deadlines




                 Abbreviations

FY         Fiscal Year
IRS        Internal Revenue Service
                            Enforcement Actions Were Not Always Timely Initiated
                            When Taxpayers Did Not Respond to Contact Attempts
                                            or Missed Deadlines




                                                Background

The Collection function mission is to collect delinquent taxes and secure delinquent tax returns
through the fair and equitable application of
the tax laws, including the use of                   The Collection function mission is
enforcement tools when appropriate; provide           focused on resolving delinquent
education to customers to enable future               accounts, providing education to
compliance; and, thereby, protect and                  customers, and protecting and
promote public confidence in the American            promoting  public confidence in the
                                                            American tax system.
tax system. Enforcement tools include
Notices of Federal Tax Lien, 1 levies, and
seizures. The Internal Revenue Code authorizes the Internal Revenue Service (IRS) to use these
tools for the collection of taxes owed.
Liens are encumbrances on property or rights to property as security for a debt or obligation.
Liens are filed with appropriate officials such as a Secretary of State or County Clerk to notify
creditors that the Government has a claim against the taxpayer’s property. Levies are legal
seizures of tax debtors’ assets to satisfy tax delinquencies. These can include assets held by third
parties such as bank accounts and wages. The IRS can also seize and sell taxpayer possessions
such as business assets, vehicles, and real estate.
IRS Policy Statement P-5-1 states that enforcement action is a necessary component of a
voluntary tax system and should be taken promptly in cases where taxpayers have not shown a
good faith effort to comply. The Fiscal Year (FY) 2005 Small Business/Self-Employed Division
Collection Program Letter stated that there seemed to be some hesitancy and confusion regarding
the next steps in revenue officer case activity, including taking enforcement actions. This led to
lapses in case activity and caused cases to remain open longer than necessary.
In a memorandum dated June 24, 2005, the Director, Collection, Small Business/Self-Employed
Division, conveyed expectations regarding the appropriate use of enforcement action on
collection cases. While acknowledging that employees must consider the facts of the individual
case and use professional judgment, the memorandum stated that use of enforcement action is an
appropriate alternative for resolving a delinquency when the taxpayer does not make a good faith
effort to pay the delinquent tax.
As shown in Figure 1, the number of enforcement actions taken by Collection Field function
employees has increased each year since FY 2005, except for seizures which decreased slightly
in FY 2008.


1
    A Notice of Federal Tax Lien will be referred to as a lien throughout this report.
                                                                                             Page 1
                         Enforcement Actions Were Not Always Timely Initiated
                         When Taxpayers Did Not Respond to Contact Attempts
                                         or Missed Deadlines



                         Figure 1: Use of Collection Enforcement Tools
                                                                                                  Change from
                           FY 2005             FY 2006             FY 2007            FY 2008       FY 2005

     Liens                  281,082             348,888             407,412            429,896    53% Increase
     Levies                 208,514             245,757             309,815            374,028    79% Increase
     Seizures                   512                 590                 676                610    19% Increase


    Source: Small Business/Self-Employed Division Collection Planning and Analysis function and
    Collection 5000-23 Reports.

The IRS is implementing procedures and processes to allow greater flexibility for dealing with
taxpayers who become delinquent due to the current economic downturn, which could have
some impact on the use of enforcement tools. The provisions apply to taxpayers who have
demonstrated good faith efforts in the past to comply with tax laws, but who now face
difficulties such as loss of job, loss of home, or a decrease in home equity.
However, these procedures were not in effect when the cases in our review were being worked
and, even if they had been in effect, we do not believe they would have had a great impact on
how the cases should have been worked. The cases included in our results involved taxpayers
who were not demonstrating good faith efforts to resolve their liabilities and comply with tax
laws. These taxpayers were missing deadlines to provide information that was needed to help
resolve their case and/or were not responding to the revenue officer’s attempts to contact them.
Over half of the cases were businesses that failed to deposit moneys withheld from their
employees’ paychecks 2 or repeat offenders even though the IRS had previously tried to educate
them about tax laws and how to comply during prior contacts.
This review was performed at the Small Business/Self-Employed Division Collection Field
function offices in Farmers Branch and Fort Worth, Texas, and Laguna Niguel, California,
during the period May 2008 through January 2009. We conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




2
 This includes deductions for such items as income tax, social security, and Medicare. These are referred to as trust
fund taxes.
                                                                                                             Page 2
                          Enforcement Actions Were Not Always Timely Initiated
                          When Taxpayers Did Not Respond to Contact Attempts
                                          or Missed Deadlines




                                       Results of Review

Proper and Timely Use of Enforcement Tools Was Emphasized by
Management
IRS collection personnel have the authority to use enforcement tools such as liens, levies, and
seizures to assist them in collecting the proper amount of tax from taxpayers who have not fully
paid the tax they owe. IRS management has developed various means of evaluating the use of
collection tools, including a quality review system and management oversight within Area
Offices. 3 National and local management can use results from these reviews and oversight
observations to take action to emphasize proper and timely use of the enforcement tools available
to revenue officers. Some examples of management’s emphasis include:
    •    A memorandum dated June 24, 2005, to field operations regarding clarification on the
         appropriate use of enforcement action in collection cases. The memorandum pulled the
         criteria from various sections of the Internal Revenue Manual and showed the differences
         that were imposed by the Internal Revenue Service Restructuring and Reform Act of
         1998. 4
    •    Training and continuing education including sessions on use of enforcement tools.
    •    Minutes and agendas from group meetings reflecting enforcement topics are included in
         the discussions.
    •    Embedded and National Quality Review Systems including attributes for measuring
         timeliness of case actions and followups and the use of enforcement.
    •    Program Letters capturing many priorities, including appropriate use of complex
         enforcement tools and timely followup actions to move cases toward resolution.
    •    Inactivity reports identifying cases where the revenue officer has not touched the case for
         extended periods of time.




3
  A geographic organizational level used by IRS business units and offices to help their specific types of taxpayers
understand and comply with tax laws and issues.
4
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                                                                                              Page 3
                             Enforcement Actions Were Not Always Timely Initiated
                             When Taxpayers Did Not Respond to Contact Attempts
                                             or Missed Deadlines



Enforcement Tools Were Not Always Timely Initiated When Taxpayers
Missed Deadlines or Were Not Cooperating to Resolve Their Balance
Due Accounts
While the use of enforcement tools has been emphasized by management and the use of liens and
levies has increased in recent years, enforcement tools are not always used as early in the case as
warranted. When contacting a taxpayer, revenue officers are required to explain to the taxpayer
his or her rights and should obtain information from the taxpayer that will help resolve the
delinquency. In most cases, the revenue officer will need to ask the taxpayer to provide
additional information not readily available when they first meet. The needed information
should be clearly communicated to the taxpayer because if the information is not provided by the
due date (or a request for an extension is not made), the revenue officer should take followup
action that will move the case toward resolution. Appropriate followup action can include
enforcement actions such as liens and levies that the IRS can use for the collection of taxes owed
as authorized by the Internal Revenue Code. Additional contact to inquire about the missed
deadline is not considered an appropriate followup action since the deadline requirements and
consequences were already clearly communicated to the taxpayer.
 Collection function enforcement tools were not always used or were not used soon enough in the
 collection process in 15 (21 percent) of the 70 sample cases (taxpayers) we reviewed. 5 These
 actions should have been pursued when taxpayers missed specific deadlines or did oot respond to
 letters or messages for the taxpayers to contact the revenue officers. 11 .,. • . , .   ·.·0:>1
1
1                                                                          'I When projected to the
 population, we estimate that collection enforcement tools were not used or were not used soon
 enough in approximately 4,250 taxpayer cases. 6
In the 15 cases, it took an averageof292 calendar days (from a minimum of 18 calendar days to
a maximum of713 calendar days) from the date that the revenue officer should have used or
started pursuing enforcement action until either the date the action occurred or the cut-off date of
our case review if the action had not yet occurred.
    •    Liens, while the    r-'-"-'-'--'--'-":,=:",:;":,:"-,-,,,,,-::~;;,;:,,:,,,:,-=-~:,:-:-=-,:-::,,:,,:,,-:,,~~=-=-=-=-.=.-.::-=-,::,:,::,:,,-=,:;

         we reviewed.
                         ,                                         In a recent review of payroll
                                                                    ;.0



         taxes, the Government Accountability Office also found that revenue officers did not
         always file liens timely. 7 Three of the five cases mentioned above include payroll taxes.
         The IRS issued interim guidance in December 2008 to address the issue.


5 We had exceptions in 15 cases, but 6 cases had exceptions for more than 1 type of enforcement action.
6 Our projection is based on a statistically valid sample from a universe of 20,270 taxpayers using a 95 percent
confidence level, an error rate of 50 percent, and a precision of ± 10 percent. The actual error rate was 21 percent.
7 Tax Compliance: Businesses Owe Billions in Federal Payroll Taxes (GAO-08-617, dated July 2008).


                                                                                                                                                Page 4
                      Enforcement Actions Were Not Always Timely Initiated
                      When Taxpayers Did Not Respond to Contact Attempts
                                      or Missed Deadlines



    •
 Levies should have been issued earlier in nine of the cases we reviewed.




    •	 Seizure consideration would have been appropriate in five of the cases we reviewed. In
       these cases, the process to determine if seizure was appropriate should have been initiated
       earlier. In the five cases there was an indication of equity in assets, but sufficient
       research was not performed to determine if seizure was appropriate.
These instances occurred in part because the revenue officers were not always following up in a
timely manner when taxpayers missed deadlines to provide information needed to resolve the
case. The Internal Revenue Manual provides that followup action should be initiated within
10 calendar days of a missed deadline. In 12 of the 15 cases, the revenue officer waited more
than 20 calendar days after the deadline before working again on the case. The next action was
an average of 81 calendar days after the deadline date in the 12 cases, ranging from 23 calendar
days to 265 calendar days. Further, the next action was enforcement in only 4 of the 12 cases.
Revenue officers advised us that they have a hard time remaining current on each assigned case
due to the combined effect of the high number of cases in their inventory, the additional
investigative time needed to work the cases because of the complex and sophisticated methods
used by the taxpayers to try to hide assets or attempt to place them out of the reach of IRS
enforcement, and the amount of documentation required to obtain approval for more potentially
controversial actions such as seizures.
In addition, the revenue officers in some of these cases appeared to be hesitant to take
enforcement actions when deadlines were missed. This can result in ineffective use of time and
further delay case resolution. For example, contrary to IRS procedures, in 9 of the 15 cases the
revenue officer initiated followup contacts with the taxpayers after the missed deadlines rather
than take enforcement action. In five of the nine cases, the revenue officer initiated at least three
additional contacts prior to taking the necessary enforcement actions.
 Finally, FYs 2007 and 2008 operational reviews of Area Offices performed under the direction
 of Headquarters staff did not include case reviews. Results from operational reviews conducted
 prior to FY 2007 showed that the revenue officer did not always initiate enforcement actions
 when warranted. The continued inclusion of case reviews during the operational reviews could
 have provided management with additional information regarding untimely enforcement actions.
'Case reviews are included in the FY 2009 operational review plan.
If enforcement tools are not used, or not used timely, the result could be a loss of revenue for the
Federal Government and inequitable treatment of taxpayers. For example, businesses that do not

                                                                                              Page 5
                      Enforcement Actions Were Not Always Timely Initiated
                      When Taxpayers Did Not Respond to Contact Attempts
                                      or Missed Deadlines



pay their taxes might have lower operating costs, giving them an unfair competitive edge over
businesses that timely comply with tax laws. When liens are not filed, or not filed timely, the
Federal Government’s interest is not adequately protected. Not filing a lien timely could
jeopardize the Federal Government’s priority right against other creditors. If the IRS has not
filed a lien on all outstanding liabilities and the taxpayer sells an asset, the IRS might not be able
to retrieve the moneys received from the sale to help satisfy the tax liabilities.
The potential for revenue collections is not maximized when levies are not used or not used
timely against taxpayer’s assets or income. Timely use of known levy sources such as bank
accounts is important because taxpayers with financial issues could change banks routinely in
order to prevent the IRS from taking their funds. In addition, the likelihood of obtaining funds
from levies could decrease as time goes on if the taxpayer has financial difficulties other than
their tax debt.

Recommendations
The Director, Collection, Small Business/Self-Employed Division, should:
Recommendation 1: Reemphasize the IRS policy for timely and effective followup contacts
to deadlines established for taxpayers. This can be accomplished by issuing a memorandum
similar to the one covering Expectations for Enforcement dated June 24, 2005. This might need
some additional text regarding the need to consider the new flexibility options that were recently
implemented.
       Management’s Response: IRS management agreed with the recommendation and
       issued a memorandum emphasizing that 1) revenue officers should implement case
       strategies which include simultaneous case actions, and 2) enforcement action is
       generally the next appropriate case action when taxpayers miss established deadlines.
       The IRS also developed several training courses designed to reinforce the importance of
       timely and effective case actions including, when appropriate, enforcement action.
Recommendation 2: Include an assessment of the adequacy of taking enforcement actions
when warranted into the case reviews that have been reintroduced as part of the FY 2009
operational reviews of Area Offices performed under the direction of Headquarters staff.
       Management’s Response: IRS management agreed with the recommendation and,
       as part of the FY 2009 headquarters operational reviews of Area Offices, the IRS has
       included an assessment of the use of appropriate enforcement action in case reviews.




                                                                                               Page 6
                          Enforcement Actions Were Not Always Timely Initiated
                          When Taxpayers Did Not Respond to Contact Attempts
                                          or Missed Deadlines



                                                                                                      Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether revenue officers 1 are adhering to
case resolution guidelines by taking appropriate enforcement actions (liens, 2 levies, or seizures 3 )
when warranted to resolve balance due accounts.
To identify cases to review, we queried the open Integrated Collection System 4 to select balance
due cases that were opened between October 1, 2005, and May 31, 2007, which provided us with
cases opened after the Enforcement Expectations memorandum dated June 24, 2005. This
should also have allowed sufficient time for the provisions of the Enforcement Expectations
memorandum to be filtered down to field employees. Selecting cases opened by May 31, 2007,
provided cases that were open long enough for significant work to have been completed on the
cases for our analysis. We then limited the results to cases where the total balance due was at
least $10,000 and there was more than 1 tax period for the taxpayer. We also excluded specialty
type cases. This resulted in a population of 20,270 taxpayers.
We randomly selected a statistical sample of 96 cases from the population noted. The
statistically valid sample size was determined based on a 50 percent expected error rate, a
95 percent confidence level, and a +10 percent precision level. The error rate was based on error
rates identified in prior audit reports. After reviewing 70 cases, we determined that the actual
error rate was 21 percent, which would have required a sample size of 65 cases. Therefore, we
discontinued the case review at that point. We selected a statistical sample because we wanted to
estimate the total number of taxpayers where collection enforcement tools were not used or were
not used in a timely manner.
To validate our data, we compared the balance due amount per tax module (40 modules), the
balance due amount per taxpayer (15 taxpayers), and the balance due amount that was shown as
a credit (40 tax modules) to information on the Integrated Data Retrieval System. 5 We
determined that all of the cases were accurate and were correctly identified for our universe.

1
  Field collection employees who attempt to contact taxpayers in person to resolve tax delinquencies that were not
resolved through letters or telephone calls to the taxpayer.
2
  A Notice of Federal Tax Lien, referred to as a lien throughout this report, is filed with officials such as a Secretary
of State or County Clerk to notify creditors that the Government has a claim against the taxpayer’s property.
3
  Levies are legal seizures of tax debtors’ assets to satisfy tax delinquencies. These can include assets held by third
parties such as bank accounts and wages. The IRS can also seize and sell taxpayer possessions such as business
assets, vehicles, and real estate.
4
  An automated system used to control and monitor delinquent cases assigned to revenue officers in the field offices.
5
  The IRS computer system capable of retrieving or updating stored information. It works in conjunction with a
taxpayer’s account records.
                                                                                                                 Page 7
                          Enforcement Actions Were Not Always Timely Initiated
                          When Taxpayers Did Not Respond to Contact Attempts
                                          or Missed Deadlines



Also, we reviewed the history sheets to validate that the cases met our criteria based on the dates
the cases were assigned and the balance due modules included in the case. No discrepancies
were identified.
To accomplish our audit objective, we:
I.       Determined whether the IRS is following case resolution guidelines when working
         balance due accounts.
         A. Identified and selected a statistically valid sample of 70 balance due cases to review.
         B. Reviewed the 70 cases to determine whether procedures established to move cases
            toward timely resolution were followed.
             1. Reviewed case consultations to determine whether the need to use enforcement
                action was discussed.
             2. Determined whether taxpayer contacts were timely and effective and whether
                deadlines and consequences established for taxpayers during contacts were
                enforced.
             3. Determined whether the revenue officer adequately considered the taxpayer’s
                compliance, financial condition, collection statute date, and other risk factors in
                determining the appropriate collection method to pursue and whether that action
                was appropriate.
             4. Determined whether the taxpayer was provided with the appropriate publications
                and notifications regarding the collection process and rights before enforcement
                actions were used.
II.      Determined what local oversight and direction was provided to encourage appropriate
         case actions and timely case resolution during visits to the Gulf States and California
         Small Business/Self-Employed Division Area Offices. 6
         A. Held discussions with two territory managers 7 in each Area Office to determine:
             1. How they monitor their groups to ensure that cases are being worked effectively.
             2. Whether they conduct quarterly consistency review meetings to help ensure that
                the group managers are consistent in the application of the quality review
                attributes.



6
  A geographic organizational level used by IRS business units and offices to help their specific types of taxpayers
understand and comply with tax laws and issues.
7
  Collection managers that report to the Area Director, Collection, and oversee portions of the Collection function
operations within the area.
                                                                                                              Page 8
                    Enforcement Actions Were Not Always Timely Initiated
                    When Taxpayers Did Not Respond to Contact Attempts
                                    or Missed Deadlines



       B. Obtained and reviewed embedded quality review reports for the two groups we
          visited in each of the Area Offices.
       C. Held discussions with two group managers in each of the Area Offices to determine:
          1. How they conducted and documented case reviews, what actions were taken
             based on the reviews, and how they used embedded quality review report results.
          2. How they monitored revenue officer inventories to ensure timely completion of
             work.
          3. Their views on taking enforcement actions and perception of revenue officer
             willingness to consider enforcement actions when appropriate.
          4. What topics they included in group meetings to determine whether enforcement
             actions were covered.
          5. Whether the area has any local procedures and guidelines on use of enforcement.
       D. Held discussions with four revenue officers that report to each of the group managers
          interviewed to determine how they:
          1. Determine the course of action to take on balance due cases and when to use
             enforcement actions.
          2. Monitor case actions and followup dates.
          3. Decide what actions to take when the taxpayer or power of attorney misses a
             specified action date.
          4. Perceive the effectiveness of the Case Consultation process.
III.   Determined whether national oversight and training on enforcement actions was
       appropriate.
       A. Reviewed collection operational reviews (for FYs 2005 and 2006) to determine
          whether issues with enforcement actions were identified and what action was taken to
          correct the issues.
       B. Reviewed training materials regarding enforcement actions/case resolution for
          consistency with established guidelines.
       C. Determined whether any additional assistance or guidance was provided to the Area
          Offices regarding enforcement actions.
       D. Obtained and reviewed national quality review reports to determine whether problem
          trends are identified and what corrective actions were taken.



                                                                                          Page 9
                    Enforcement Actions Were Not Always Timely Initiated
                    When Taxpayers Did Not Respond to Contact Attempts
                                    or Missed Deadlines



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Carl L. Aley, Director
Amy L. Coleman, Audit Manager
Joseph P. Snyder, Lead Auditor
Michael Della Ripa, Auditor
Chanda L. Stratton, Auditor




                                                                                      Page 10
                    Enforcement Actions Were Not Always Timely Initiated
                    When Taxpayers Did Not Respond to Contact Attempts
                                    or Missed Deadlines



                                                                           Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Collection, Small Business/Self-Employed Division SE:S:C
Director, Collection Policy, Small Business/Self-Employed Division SE:S:C:CP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                 Page 11
                       Enforcement Actions Were Not Always Timely Initiated
                       When Taxpayers Did Not Respond to Contact Attempts
                                       or Missed Deadlines



                                                                                    Appendix IV

          Case Example - Untimely Enforcement Actions

 The history includes all the significant actions with the taxpayer and/or representative to resolve
 the case between April 25, 2006, and April 12,2007.
History     Deadline    Action         Consequence     Explanation of History Actions
Date        Date        Requested      of Missing
                                       Deadline




                                                                                             Page 12
      Enforcement Actions Were Not Always Timely Initiated
      When Taxpayers Did Not Respond to Contact Attempts
                      or Missed Deadlines



                                                   Appendix V

Management’s Response to the Draft Report




                                                         Page 13
Enforcement Actions Were Not Always Timely Initiated
When Taxpayers Did Not Respond to Contact Attempts
                or Missed Deadlines




                                                   Page 14
Enforcement Actions Were Not Always Timely Initiated
When Taxpayers Did Not Respond to Contact Attempts
                or Missed Deadlines




                                                   Page 15
